v.

No.

\

U)

CD

In the

Supreme Court of the United States
♦

Justin P. Sulzner, member Christian Cong, of Jehovah’s Witnesses (CCJW)
Plaintiff
-vs.-

United States Intelligence Agencies, (ODNI) et al
Defendant
♦

PETITION FOR
WRITS OF MANDAMUS IN THE
EIGHTH CIRCUIT COURT OF APPEALS

FILED
FEB 24 2021

*

hi Re: Justin Paul Sulzner
♦

Justin Paul Sulzner, Pro Se
1834 1st Avenue NE - #104
Cedar Rapids, Iowa 52402
319-213-7608
justinsulzner@gmail. com

QUESTIONS PRESENTED
1. Whether the 8th Cir. Appellate Court should have used
“special care” when dealing with a mentally disabled,
indigent, pro se Plaintiff under 28 U.S.C. 1915(d)(e) and
appointed an attorney to help him.
2. Whether the 8th Cir. Appellate Court should have
granted emergency injunctive reliefs against an ODNI
covert community operating inside the CCJW, when
proof is available that past covert operations were
conducted within it.

Z

TABLE OF CONTENTS

TABLE OF AUTHORITIES

4

LIST OF PARTIES

5

JURISDICTION.

5

CASE OPINIONS.

5

CONSTITUTIONAL & STATUTORY PROVISIONS

5,6

STATEMENT OF THE CASE

6,7

FACTS OF THE CASE

7, 8, 9, 10

REASONS FOR GRANTING THE WRITS.

10, 11, 12, 13

CONCLUSION

14

CERTIFICATE OF SERVICE

15

INDEX TO APPENDIX A (LOWER COURT FILINGS)

16

a

TABLE OF AUTHORITIES

1.
2.
3.
4.

CONSTITUTIONAL AUTHORITY
First Amendment
Free Exercise Clause
Fourth Amendment
Fourteenth Amendment

FEDERAL Rin.ES OF CIVIL PROCEDURE
1. Federal Rule of Civil Procedure 12(b)6 - “Failure to State a Claim”
CONGRESSIONAL AUTHORITY
1. Religious Freedom Restoration Act (RFRA) - 42 U.S.C. § 2000bb - 4
JUDICIAL CASES
1. Bivens vs. “Six Agents” - 403 U.S. 388 (1971)
2. In re First S. Sav. Ass’n, 820 F.2d 700, 707 (1987)
3. Haines vs. Kemer 404 U.S. 519 (1972)
4. La Buy vs. Howes Leather Co., 352 U.S. 249, 256-258, (1957)
5. Mallard vs. U.S. Dist. S. Dist. of Iowa, 490 U.S. 296 (1989)
6. Nelson vs. Campbell (2004), citing 18 U.S.C. 3626(a).
7. Nietzke vs. Williams (1989)
8. Naranjo vs. Thompson (2015)
9. Parham vs. Johnson, 126 F.3d 454, 457 (3rd Circuit) (1997)
10. Ex parte Peterson, 253 U.S. (1920)
11. Tummino vs. Torti, 603 F. Supp. 519 (2009)
12. In re Vuitton Et Fils S.A., 606 F.2d 1, 3 (1979)

1.
2.
3.
4.

STATUTES
28 U.S.C. §1254(1)
28 U.S.C. § 1361
28 U.S.C. § 1651(a)(b)
28 U.S.C. § 1915(d)(e)

MISCELLANEOUS AUTHORITY
1. 1 Timothy 3:1-5 (Bible)
4

LEST OF PARTIES
ODNI (Neil Wiley, Laura Schiao, Beth Sanner, Jeffrey
Kruse, Dustin Weiss, Steve Vanech, William Evanina,
Alan McDougall, Ben Huebner, Thomas Monheim,
Bradley Brooker, Matthew Kozma, Trey Treadwell.
Amanda Schoch - Iowa Northern District Court, 8th
Cir. Court of Appeals & 8th Circuit Court En Banc.
JURISDICTION
This petition is for a writ of certiorari and writs of
mandamus. Jurisdiction is invoked under 28 U.S.C.
1254(1), 28 USC § 2106, & requested writs under 28
U.S.C. 1651(a)(b) & 28 U.S.C. 1361.
CASE OPINIONS
The order of the 8th Circuit Court of Appeals rehearing
and En Banc rehearing was denied on December 2nd,
2020. The Appeal to the 8th Circuit Court was affirmed
on October 22nd, 2020. The order of the Iowa Northern
District Court was denied on September 3rd, 2020.
CONSTITUTIONAL & STATUTORY PROVISIONS
1. 1st & 14th Amendments - “Petition the Government for a
redress of grievances for practices restricting individual
religious practice.” “ODNI covert operation resulted in a
violation of “separation of church and state”
2. Free Exercise Clause - “ Prohibits ODNI interference
with religious belief and, within limits, religious
practice”
5

3. Religious Freedom Restoration Act (RFRA) - 42 U.S.C. §
2000bb - 4" ODNI has intentionally burdened Plaintiffs’
religious exercise with an internal intelligence operation
and must now show that the burden is (1) in furtherance
of a compelling governmental interest and (2) the least
restrictive means of furthering that interest.”
4. Bivens vs. Six Agents 403 U.S. 388 (1971) - “ODNI has
violated (1st and 14th) Amendments by directing and
controlling an intelligence operation within the sanctuary
of CCJW’s, allowing for a “Bivens” action to proceed.

STATEMENT OF THE CASE
1. The federal in forma pauperis statute, 28 U.S.C.
1915, “ensure [s] that indigent litigants have
meaningful access to the federal courts.” - Neitzke
vs. Williams - 490 U.S. 319 (1989). Knowing the
mentally disabled Plaintiff desperately needed
legal representation (App. P. 28, 29 ), the Iowa N.
District Court cited 3 pro se filing mistakes to
ensure “meaningful dismissal”. (App. P. 44 ).
Nietzke vs. Williams (1989) further held: “A
complaint filed in forma pauperis is not
automatically frivolous within the meaning of §
1915(e) because it fails to state a claim.. .and
should no£ be dismissed” (App. P. 41, 42). Iowa N.
District Court improperly cited Fed Civ. R. 8(a) (2)
“failure to state relief”’ as a reason for dismissal.
Relief is clearly requested under “Request for
relief’ at the end of Plaintiffs filed complaint!?
(App. P. 24 )
6

2. Plaintiff clearly stated “relief” in complaint
seeking 6 emergency injunctions. This is the only
“adequate means of relief” and the “only
appropriate remedy” under the circumstances.
Mandamus is appropriate where Plaintiff "lacks
adequate alternative means to obtain the relief
they seek"- Mallard vs. Iowa S. District Court, 490
U.S. 296 (1989). ODNI refuses to answer any
further FOIA’s concerning details surrounding
any intelligence operation within CCJW.
FACTS OF THE CASE
Pro Se, age 51, mentally disabled, first time Federal filer,
have attended the Christian Congregation of Jehovah’s
Witnesses (CCJW) all my life. Around 2009, Mr. Sulzner
began to take note of many “suspect members” being
appointed to positions of high responsibility within
various congregations he had attended in eastern Iowa
It was a cause for alarm, as these individuals had no
business leading congregations. In 2019, Mr. Sulzner
began to suspect his wife and extended family may be
involved and confronted his (now divorced) wife and
family of 30 years about this matter and they carelessly
admitted they were involved. In 2019, at the local ACLU
office, he filed a complaint alleging these “impostors”
were part of a large ODNI intelligence community within
CCJW (App. P. 7- 9 ). The ACLU said: Seek more proof!

In the next four months, 18 FOIA’s were filed for more
information on ODNI communities within the CCJW.
(App. P. 10 -12 )
1

National Archives (NARA) responded to the FOLA and
confirmed TWO covert ODNI intelligence operations
(App. P. 13,14 ) with 13,600 pages of unredacted
information, within CCJW from 1921 to 1977. Strong
merits for a court case now existed. - (“we look first to
the likelihood of merit of the underlying dispute.”) Parham vs. Johnson, 126 F.3d 464,467 (3rd Circuit)
(1997) (“Plaintiffs must have some merit in fact & law”)
On 6 /15 /2020, a Federal complaint was filed (App. P. 16 27) in the Iowa N. District alleging ODNI operatives were
still inside the CCJW and requested injunctive relief. Mr.
Sulzner twice requested attorney assistance from the
Court and notified both Courts early concerning his
mental disability. (App. P. 31,46 ).
The Iowa N. District did not grant access to an attorney,
injunctive relief or two requested hearings. (App. P. 32,
35). This issue “is one committed to the discretion of the
trial court, a clear and indisputable right to the issuance
of the writ of mandamus will arise only if the district
court has clearly abused its discretion, such that it
amounts to a judicial usurpation of power.” - In re First
S. Sav. Ass’n, 820 F.2d 700, 707 (1987). Both Federal
Court’s have unquestionably abused their discretion.
When NARA released the FOIA information, it was a
surreal feeling knowing only ODNI, NARA and Mr.
Sulzner knew of the existence of this multi-decades long
top secret covert intelligence operation. The Iowa N.
District didn’t care and said it was just a “conspiracy
theory.” (App. P. 44 ) and used this as one reason for
dismissal. An appeal was filed with the 8th Circuit of

8

Appeals (App. P. 46 - 51). They didn't care either and
affirmed the Iowa N. District ruling. (App. 52 ). If further
information is discovered, it will unquestionably affect
more than just religious communities within the U.S.A.
These ODNI impostors also hold normal jobs within our
communities, affecting others unaware of their real role.
How is it possible for a stupid janitor from Olin, LA (pop.
691) to discover a multi-million dollar intell. operation
inside CCJW and then be treated by both Courts as if
that information is of no consequence to his filed
complaint ? The lower courts have truly “refused to
perform their true adjudicator role & duty.” - La Buy vs.
Howes Leather Co., 352 U.S. 249,255-258, (1957)
Further FOIA information demands were stalled by
ODNI stating: “scope request is not applicable” or “we
can neither confirm nor deny any of your questions.”
Mr. Sulzners complaint is simple.. ..ODNI did not tell
their trained, embedded intelligence operatives to just
“go home” after the 1977 investigation for treason had
ended (without results). ODNI had invested billions of
dollars in time and training this “invisible” intelligence
army. They would stay within the CCJW, weaken the
congregation from within, and patiently execute adverse
decisions. Eventually the Kingdom Hall (place of
worship) would be sold and the door - to - door
preaching work would cease. The circumstances
surrounding these two intelligence operations are quite
perplexing....for 57 years ODNI felt there was enough
“evidence” to justify a functioning treason investigation
and that operation was CONTINUALLY APPROVED

9

decade after decade.. ..yet there were never ANY federal
charges filed against Jehovah’s Witnesses for treason.
If an ODNI covert operation were found looking for
“treasonous judges” inside the Iowa N. District and 8th
Cir. Appellate Court for over 57 years, I’m 100%
confident it would not be labeled as a “conspiracy
theory!” Every judge (maybe?) would be appalled and
demand more details on the operation!.. .Why are judges
not appalled in THIS situation ? Why aren't there more
court ordered demands ?

REASONS FOR GRANTING THE WRIT fATTORNEY APPiamMiEism
The Supreme Court held that “pro se pleadings should
be held with special care, a litigant with counsel may
include crucial facts a pro se litigant would not think to
include in his pleading” - Haines vs. Kemer 404 U.S. 519
(1972). No “special care” was afforded to Mr. Sulzner by
the Iowa N. District or the 8th Cir. Appellate Court.
“The authority to appoint counsel in civil cases
applies.. .because federal courts have inherent power to
provide themselves with the appropriate instruments
required for the performance of their duty.”- Ex parte
Peterson, 253 U.S. (1920).
The First, Fourth, Fifth, Sixth, Ninth and Eleventh
Circuits all require that “exceptional circumstances”

IQ

exist before a court can appoint counsel for an indigent
civil litigant under 28 U.S. Code § 1915 (e). If you live in
any other Circuit, without case precedence, like the
Eighth Circuit District.. .too bad! No justice for you!
There is no dispute that Plaintiff could not adequately
present his case without the assistance of counsel. Like
many pro se litigants, the Plaintiff only has a high school
education. These deficits are compounded by the
Plaintiff’s diagnosis of mental disability from the State of
Iowa ( App. P. 46 ). All of these facts were AGAIN
ignored by both Courts. Mr. Sulzner’s disability was not
even acknowledged in either Court's trivialized opinions.

REASONS FOR GRANTING THE WRIT 6 TN.TUNCTTVE RELIEFS
The 6 injunctive requests were clearly explained to the
Iowa N. District Court and the 8th Circuit Appellate
Court. All requests fell on deaf ears (App. 24, 25, 51).
The Supreme Court has repeatedly stated that “three
conditions must be satisfied” before granting an
extraordinary writ:
First: “Petitioner seeking writ must have no other
adequate means to obtain the relief sought.” Both the
Iowa N. District and 8th Cir. Appellate Courts have
unjustly and unfairly DENIED ALL REQUESTS. The
U.S. Supreme Court is the last available “adequate
means” to rectify this important matter.

11

Second: Petitioner must show the right to the writ is
“clear and indisputable.”
A. Observed “impostors” had no Biblical qualifications to
lead others inside the CCJW. Loving concern for others
was truly lacking. (1 Timothy 3:1-5)
B. Ex-family members admitted intelligence involvement.

C. NARA FOIA confirmed TWO covert operations within
the CCJW over decades.
D. No other action can be taken without the “hammer” of a
court order forcing discovery in this covert operation or
the injunctions ordering ODNI departure and discovery
detailing the operation. ODNI refuses to reply to any
further questions.
E. ODNI has a legal duty to divulge ANY involvement in the
CCJW, even if considered to be minimally invasive. They
choose not to divulge anything.
E Discovery in this case would be completely different from
discovery in an ordinary case. In any other case, a plaintiff
can demand written discovery and depositions. In this
case, deposing any high-ranking government officials is
extremely difficult and virtually impossible. Nor are
ordinary Plaintiffs able to access to documents and
communications that ODNI would claim is protected by
legislative and executive privilege - See Tummino vs.
Torti, 603 F. Supp. 519 (2009) (detailing the huge burden
getting discovery from FDA and branch official exec’s)
12

Third: Petitioner must establish the writ is appropriate
under the present circumstances. In this case, the
injunctive relief is similar to a “ restraining order” - See
In re Vuitton Et Fils S.A., 606 F.2d 1,3 (1979).
Injunction is the only appropriate remedy to identify and
“purge” those who are not truly part of the CCJW, so the
practice of individual religious worship can prosper.
ODNI will simply deny any involvement today, as they
would have denied involvement if they were asked for
information between the years of 1921 and 1977.
The requested injunctive relief was also very “specific
and narrowly drawn.” Nelson vs. Campbell (2004), citing
18 U.S.C. 3626(a). The 6 injunctive requests against
ODNI were drafted in a manner to avoid years of
unwanted burdensome legal discovery. It would
eliminate fighting about qualified immunity and
objections to release of information protected by
executive privilege. If ordered and nothing happened,
the injunctive court order would be completely
innocuous, affecting no one.
Yes, I am one of those “treasonous” Jehovah’s Witnesses,
relentlessly known for filing 1st Amendment complaints
with the U.S. Supreme Court, however, I can assure the
U.S. Supreme Court if one of Jehovah’s Witnesses is at
their front door, there is a MAJOR CONSTITUTIONAL
ISSUE that needs and requires fair, impartial judicial
consideration. This complaint is just that?

13

CONCLUSION
The petition for writ of certiorari to quash the orders of
dismissal and petition for writs of mandamus requesting
orders of injunctive relief against ODNI should be
granted under these unusual circumstances.

This petition complies with the Rule #14, #18, #20 and
#33 - Rules of the Supreme Court and has 2600 words.

Respectfully submitted "I declare and certify under penalty of perjury that the
foregoing fact within this Supreme Court petition are
true and correct in compliance with 28 U.S.C § 1746 ” :

Dated this 7th day of January, 2021

/s/ Justin Paul Sulzner
Justin P. Sulzner, Pro Se
1834 1st Avenue - #104
Cedar Rapids, Iowa 52402
319-213-7608

14

